No. 19-177
In The

Supreme (ilmxri of
United States Agency for International
Development, et al.,
Petitioners,
V.

Alliance for Open Society International, Inc., et al.
Respondents.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 4th day of March 2020, caused three copies of the Brief of
Professors of Public Health and-Organizations Working in Public Health Policy and
Implementation as Amici Curiae in Support of Respondents to be served via overnight
mail and an electronic version of the document to be transmitted via the Court’s
electronic filing system to:
NoelJ. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States Agency for
International Development, et al.

David William Bowker
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006
(202) 663-6558
david.bowker@wilmerhale.com
Counsel for Alliance for Open Society
International, Inc., et al.

Q\
\J

Jessica Ring Amunson

